Petition
Appendix

The Supreme Court of the State of Colorado
2 East 14th A
D
,C
ad 80203
2020 CO 74
Supreme Court Case No. 18SC923
Certiorari to the Colorado Court of Appeals
Court of Appeals Case No. 16CA138
Petitioner:
The People of the State of Colorado,
v.
Respondent:
Derek Michael Rigsby.
Judgment Reversed
en banc
September 14, 2020

Attorneys for Petitioner:
Philip J. Weiser, Attorney General
Jillian J. Price, Senior Assistant Attorney General
Denver, Colorado
Attorneys for Respondent:
Megan A. Ring, Public Defender
Jessica Sommer, Deputy Public Defender
Denver, Colorado
JUSTICE SAMOUR delivered the Opinion of the Court.
JUSTICE GABRIEL dissents.

1a

The People charged Derek Michael Rigsby with three felony counts of

¶1

c

dd

a a

a

a

a

ac during a bar fight.

The three charges represented alternative methods of committing the same crime.
The jury found Rigsby guilty as charged on the first two counts: (1) second degree
assault (acting with intent to cause bodily injury and causing serious bodily
injury); and (2) second degree assault (acting recklessly and causing serious bodily
injury with a deadly weapon). On the third count, second degree assault (acting
with intent to cause bodily injury and causing bodily injury with a deadly
weapon), the jury returned a guilty verdict on the lesser included offense of third
degree assault (acting with criminal negligence and causing bodily injury with a
deadly weapon), a misdemeanor; in so doing, the jury necessarily acquitted Rigsby
of the charged offense on that count.
¶2

Concluding that the guilty verdicts for second degree assault, on the one

hand, and the guilty verdict for third degree assault, on the other, were mutually
exclusive, a division of the court of appeals reversed the judgment of conviction
and remanded for a new trial. The division determined that the guilty verdicts
could not be reconciled because the second degree assault convictions required the
jury to find that Rigsby acted intentionally and recklessly and was thus aware of
the risk of bodily injury, while the third degree assault conviction required the jury
to find that Rigsby acted with criminal negligence and was thus unaware of the

2

2a

risk of bodily injury. In the d

, the guilty verdicts for second degree

assault negated the guilty verdict for third degree assault and vice versa.
¶3

The People concede that the judgment of conviction entered by the trial

court was defective, but argue that the error was one of multiplicity, not mutually
exclusive verdicts, and that it should be corrected by merging the three guilty
verdicts. We agree.
¶4

Pursuant to section 18-1-503(3), C.R.S. (2019), proving the mental state

required for each of the second degree a a
a d

c

c

c

(

a

) necessarily established the

mental state required for the third degree assault conviction ( criminal
negligence ). Therefore, even if each of the guilty verdicts for second degree
assault is logically inconsistent with the guilty verdict for third degree assault, no
legal inconsistency exists. Accordingly, the division was mistaken in determining
that the trial court accepted mutually exclusive verdicts.
¶5

We nevertheless conclude that the trial court erred by entering

multiplicitous convictions, which violated R

b

b

d

b

jeopardy. We thus remand to the court of appeals with instructions to return the
case to the trial court to merge all of the convictions into a single conviction for
second degree assault and to leave in place only one sentence (one of the two
concurrent five-year prison sentences imposed).

3

3a

I. Facts and Procedural History
¶6

Rigsby, his girlfriend, and two of their friends (a man and a woman) went

to a bar. While R

b

d a d her female friend stood on the dance floor,

Nathan Mohrman and his male friend began talking to them. What followed was
disputed at trial.

However, there was no disagreement that a confrontation

ensued shortly thereafter between Rigsby and Mohrman during which Rigsby
struck Mohrman in the face with the glass Rigsby was holding in his hand.
Mohrman resulting injury required several stitches.
¶7

The People subsequently charged Rigsby with second degree assault, a

felony.

Because they proceeded under three alternative theories of liability,

however, they filed three separate charges: count 1, second degree assault (acting
with intent to cause bodily injury and causing serious bodily injury); count 2,
second degree assault (acting recklessly and causing serious bodily injury with a
deadly weapon); and count 3, second degree assault (acting with intent to cause
bodily injury and causing bodily injury with a deadly weapon). On the first two
counts, the jury found Rigsby guilty as charged. On count 3, the jury acquitted
Rigsby of the charged offense, but returned a guilty verdict on the lesser included
offense of third degree assault (acting with criminal negligence and causing bodily

4

4a

injury with a deadly weapon).1 The trial court later sentenced Rigsby to five years
in prison on each of the two felonies and to sixty-six days in jail on the
misdemeanor, with all of the sentences to be served concurrently.
¶8

Rigsby appealed his convictions. As relevant here, he contended that the

verdicts were mutually exclusive because counts 1 and 2 required the jury to
determine that he acted intentionally and recklessly and was thus aware of the risk
of bodily injury, but the lesser included offense on count 3 required the jury to
determine that he acted with criminal negligence and was thus unaware of the risk
of bodily injury. In a published opinion, the division unanimously agreed with
Rigsby. People v. Rigsby, 2018 COA 171, ¶ 1, __ P.3d __. It held that, while the
convictions for second degree assault were consistent with each other, Rigsby
could not simultaneously stand convicted of those offenses, which required proof
that he acted intentionally and recklessly, and of third degree assault, which
required proof that he acted with criminal negligence. Id. at ¶ 14. Elaborating, the
division explained that to act intentionally or recklessly requires that a defendant
act with knowledge of a result or potential result, while to act with criminal

The trial court instructed the jury on the lesser included offense on count 3 at
R b
. On count 2, the trial court
c d
,a a a R b
request, on the lesser included offense of third degree assault (acting recklessly
and causing bodily injury).
1

5

5a

negligence requires that a defendant act without such knowledge. Id. at ¶ 13. The
d

a

d

a

aa

mental states for the same act

c

c

b

a d negligent

hitting Mohrman in the face with a glass

could

not be sustained because someone cannot concomitantly consciously act d
being aware of the risk and fail to perceive [that]
¶9

.

Id.

Believing the guilty verdicts for second degree assault, on the one hand, and

the guilty verdict for third degree assault, on the other, to be mutually exclusive,
the division found that the former negated the latter and vice versa. Id. at ¶ 15.
Addressing the proper remedy, the division ruled that it had to set aside the
convictions and remand the case for a new trial because there was no way to
d c
¶10

. Id. at ¶¶ 16 19.
The People timely petitioned our court for certiorari. And we granted their

petition.2

2

Here are the two issues we agreed to review:
1. Whether
c
a
a
d
c c d
dc
finding defendant guilty of both second degree assault and third degree
assault were inconsistent under People v. Frye, 898 P.2d 559 (Colo. 1995).
2. Whether the court of appeals erred by reversing for a new trial for
inconsistent jury verdicts, instead of maximizing the jury verdicts by
affirming the most serious conviction.
6

6a

II. Standard of Review
¶11

Whether verdicts are mutually exclusive is a question of law. People v.

Delgado, 2019 CO 82, ¶ 13, 450 P.3d 703, 705. We review questions of law de novo.
Id.
¶12

The People maintain that even if we find, as the division did, that the trial

court accepted mutually exclusive verdicts, we should determine that the error
a

a

a dd

a. T

a

a da d

a

applies, according to the People, because Rigsby failed to preserve his claim. We
disagree
¶13

P

a

c

.

Immediately after the jury returned its verdicts and was discharged, Rigsby

moved for a new trial on the ground that the culpable mental states required for
the guilty verdicts were mutually exclusive. In the court of appeals, the People
explicitly agreed that Rigsby preserved this claim. The People do not explain why
they now take a diametrically opposed position. And the record supports the
P
¶14

a

c

c

.

In any event, preservation is of no moment because the error that did occur

was one of multiplicity, which violates the Double Jeopardy Clauses of the federal
and state constitutions and requires a remedy. See Reyna-Abarca v. People, 2017 CO
15, ¶ 81, 390 P.3d 816, 828. Hence, even if Rigsby had failed to preserve his claim,
he would still be entitled to relief. See id.

7

7a

III. Analysis
A. The Verdicts Are Not Mutually Exclusive
¶15

Courts have historically given deference

ac -finding authority.

See, e.g., People v. Frye, 898 P.2d 559, 567 (Colo. 1995). In line with such deference,
some eighty-eight years ago, both the Supreme Court and our court held that a
defendant who is convicted on one count may not attack that conviction on the
ground that it is inconsistent with the verdict of acquittal on another count. See
Dunn v. United States, 284 U.S. 390, 393 (1932) (holding that consistency in verdicts
is not necessary); Crane v. People, 11 P.2d 567, 568 69 (Colo. 1932) (adopting the
holding in Dunn). In 1984, the Supreme Court reaffirmed the rule in Dunn as
[ing]

a

d a

a , United States v. Powell, 469 U.S. 57, 64 (1984), and

eleven years later, we reaffirmed the rule in Crane as being a

d

federal rule . . . articulated in . . . Powell, Frye, 898 P.2d at 571.3
¶16

But the Court in Powell cautioned that it was not resolving a situation where

a defendant is convicted of two crimes and a guilty verdict on one count excludes

This line of cases renders inconsequential any inconsistency between the guilty
verdicts on the first two counts and the acquittal of the charged offense on the third
count. We recognize that these types of inconsistencies between guilty and
ac
a
dc
a a product of jury lenity, Powell, 469 U.S. at 65, and do
a
a
c
c d
d
da
, Dunn, 284
U.S. at 393.
3

8

8a

a finding of guilt on the other. Powell, 469 U.S. at 69 n.8. And we took note of this
limitation in Frye. 898 P.2d at 569 & .13. I

c

a

,

b

d, c

are generally uniform in their agreement that the verdicts are legally and logically
c
¶17

a d

d

b

a

d.

Id. at 569 n.13.

Just last term, we were confronted with the type of case Powell and Frye

excluded from the scope of their holdings. See Delgado, 2019 CO 82, 450 P.3d 703.
In Delgado, we held that guilty verdicts for robbery and theft vis-à-vis a single
taking were mutually exclusive and could not be upheld. Id. at ¶ 3, 450 P.3d at
704. We noted that it was impossible for the defendant to have unlawfully taken
items from the victim by force, as required by robbery, and also without force, as
required by theft. Id. Such verdicts, we reasoned, flew in the face of due process
because each offense included an element that negated an element of the other
offense, which meant that the prosecution had necessarily failed to prove at least
one element of each offense beyond a reasonable doubt. Id. at ¶¶ 23, 27 28,
450 P.3d at 707 08. We explained that the establishment of every element of
robbery (including the use of force) had necessarily negated the element of theft
that required the use of any means other than force, and, conversely, the
establishment of every element of theft (including the use of any means other than
force) had necessarily negated the element of robbery that required the use of
force. Id.

9

9a

¶18

Significantly, in arriving at our decision in Delgado, we undertook an

elements-based analysis. Id. at ¶ 20, 450 P.3d at 707. We did so based in part on
our comment in Frye that a jury returns mutually exclusive guilty verdicts where
the existence of an element of one of the crimes negates the existence of a necessary
element

c

.

Id. (quoting Frye, 898 P.2d at 569 n.13). Thus, to

determine whether two guilty verdicts are mutually exclusive, we must compare
the statutory elements of the underlying crimes. Id. at ¶ 27, 450 P.3d at 707.
¶19

Focusing on the statutory language defining each of the three crimes

implicated here, the division correctly stated that: count 1 required a finding that
Rigsby acted with intent to cause Mohrman bodily injury; count 2 required a
finding that Rigsby recklessly caused Mohrman serious bodily injury; and count 3
required a finding that Rigsby acted with criminal negligence in causing bodily
injury to Mohrman. Rigsby, ¶ 10. Under section 18-1-501(5), C.R.S. (2019), a person
ac

a

c

c c

c b d b
...
ac
ab

ac a
c

cc

b c

d
d.

ca
,

ad

U d r subsection (8) of that statute, a

he consciously disregards a substantial and
a a

subsection (3)
a

a

c

a
d

cc
a

a

a ac c

,a

ac
a da d

10

10a

a c
c

ca

. A d

a
a a

c
a

ab

d
,

would exercise, he fails to perceive a substantial and unjustifiable risk that a result
cc
¶20

a ac c

a c

.

Based on those statutory definitions, the division concluded that the guilty

verdicts on counts 1 and 2, while logically and legally consistent with each other,
were logically and legally inconsistent with the guilty verdict on count 3, and that
the guilty verdict on count 3, in turn, was logically and legally inconsistent with
the guilty verdicts on counts 1 and 2. Rigsby, ¶ 14. Rigsby points to Delgado in
defending
¶21

d

rationale. But Delgado is inapposite.

Whereas Delgado involved an inconsistency between the element in robbery

of taking an item by force and the element in theft of taking an item without force,
the alleged inconsistent elements here are the required culpable mental states:
intentionally and recklessly (for the second degree assault convictions), on the one
hand, and criminal negligence (for the third degree assault conviction), on the
other. And the reason this distinction from Delgado is meaningful is that section
18-1-503(3) accords special treatment to culpable mental states in Colorado:
If a statute provides that criminal negligence suffices to establish an
element of an offense, that element also is established if a person acts
recklessly, knowingly, or intentionally. If recklessness suffices to
establish an element, that element also is established if a person acts
knowingly or intentionally. If acting knowingly suffices to establish
an element, that element also is established if a person acts
intentionally.

11

11a

Thus, section 18-1-503(3) sets up a hierarchical system of culpable mental states in
which: (1) with intent is the most culpable, knowingly is the next most culpable,
recklessly is the next most culpable, and with criminal negligence is the least
culpable; and (2) proving a culpable mental state necessarily establishes any lesser
culpable mental state(s). The Venn diagram below highlights these points:

With
Intent

Knowingly

Recklessly

With
Criminal
Negligence

¶22

As this illustration reflects, acting recklessly necessarily includes acting with

criminal negligence. Acting knowingly necessarily includes acting recklessly and

12

12a

acting with criminal negligence. And acting with intent necessarily includes
acting knowingly, acting recklessly, and acting with criminal negligence.
¶23

Under section 18-1-503(3), then, by proving that Rigsby acted with intent for

purposes of count 1, the People necessarily established that he acted with criminal
negligence for purposes of count 3, and by proving that Rigsby acted recklessly
for purposes of count 2, the People necessarily established that he acted with
criminal negligence for purposes of count 3. It follows that by returning a guilty
verdict on count 1 and finding that Rigsby acted with intent, the jury, as a matter
of law, necessarily found that he acted with criminal negligence, and by returning
a guilty verdict on count 2 and finding that Rigsby acted recklessly, the jury, as a
matter of law, necessarily found that he acted with criminal negligence. Hence,
even if there is a logical inconsistency between acting with intent and acting with
criminal negligence, and between acting recklessly and acting with criminal
negligence, no legal inconsistency exists in either scenario based on section
18-1-503(3). And guilty verdicts that are legally consistent are not mutually
exclusive.
¶24

Rigsby recognizes that, pursuant to section 18-1-503(3), proving that a

defendant acted intentionally or recklessly suffices to establish that he acted with
criminal negligence.

He dismisses section 18-1-503(3), though, as simply

expressing the legislative prerogative that proving a culpable mental state

13

13a

establishes any lesser culpable mental state(s). But that is precisely why Rigsby
cannot prevail: Section 18-1-503(3)
must honor. The legislature
beyond question that those

c

a

a
d

a

d

c

a

, which we

db

, and it is

dca

a

.

Indus. Comm n . Nw. Mut. Life Ins. Co., 88 P.2d 560, 563 (Colo. 1939). When the
legislature includes particular definitions for terms it uses in a statute, those
definitions, not an average

understanding of the terms, govern. R.E.N. v.

City of Colo. Springs, 823 P.2d 1359, 1364 (Colo. 1992). Here, the legislature has
spoken loud and clear: Proving a culpable mental state necessarily establishes any
lesser culpable mental state(s). And we are bound by that declaration.
¶25

Moreover, c

a

R

b

a

, he fact that the jury was not

instructed on section 18-1-503(3) is inconsequential. Rigsby cites no authority
approving, let alone requiring, a jury instruction based on section 18-1-503(3). Nor
does Rigsby explain why the lack of such an instruction renders the statutory
provision meaningless. We are not free to disregard section 18-1-503(3) simply
because the jury was not informed about it. Had the intent been for section
18-1-503(3) to apply only when the jury is instructed on it, the legislature
presumably would have said so. Instead, the legislature simply pronounced that,
as a matter of law, a culpable mental state is established by a finding that the
defendant acted with a more culpable mental state.

14

14a

¶26

Rigsby insists, though, that he could not have intended to cause injury or

been aware of a risk of injury while contemporaneously being unaware of that risk
of injury. This assertion misses the mark because it addresses at most whether the
second degree assault guilty verdicts, on the one hand, and the third degree assault
guilty verdict, on the other, are logically inconsistent. Even assuming they are,
Rigsby does not, and cannot, show that there is a legal inconsistency. Section
18-1-503(3) forecloses such a showing. Therefore, Rigsby cannot establish that the
guilty verdicts are mutually exclusive.
¶27

We reiterate that two guilty verdicts are mutually exclusive when the

existence of an element of one of the crimes negates the existence of an element of
the other crime. Delgado, ¶ 20, 450 P.3d at 707; Frye, 898 P.2d at 569 n.13. Because
no element of a guilty verdict negates an element of another guilty verdict here,
this case does not involve mutually exclusive guilty verdicts.

B. Multiplicity and Merger
¶28

The People nevertheless submit that the trial court erred by entering

multiplicitous convictions instead of merging them and entering a single
conviction. We agree.
¶29

The U.S. C

d a

b
C

a
d

b

. U.S. C
a a

a

15

15a

.a

c
d. V. S

b

c

ad
a

,

C
ad

ad

sa

.

C

. C

. a . II,

18.

T

c

b

a

constitutional provisions prohibits a second trial for the same offense, Whalen v.
United States, 445 U.S. 684, 688 (1980), a d a
multiple punish

a

,

d

a a

c

Waddell v. People, 2020 CO 39, ¶ 11,

462 P.3d 1100, 1105 (quoting Allman v. People, 2019 CO 78, ¶ 11, 451 P.3d 826, 829).
We deal here only with the protection against improper multiple punishments.
¶30

Double jeopardy tends to be implicated when multiplicity issues exist.

Woellhaf v. People, 105 P.3d 209, 214 (Colo. 2005).

M

c

charging of multiple counts and the imposition of multiple punishments for the
a

c

a c

d c.

Id. W

a

ad

a

c

c

a

may yield multiple punishments for the same offense, thereby running afoul of
double jeopardy principles. Id. Multiple punishments do not merely encompass
c .

I

d

b

ad

a

,

[ ]

a c

c

unaccompanied by a sentence bears sufficiently adverse collateral consequences
to amount
¶31

.

People v. Wood, 2019 CO 7, ¶ 23, 433 P.3d 585, 592.

The mantle of protection afforded by the Double Jeopardy Clauses does not

prevent the legislature from specifying multiple punishments based on the same
criminal conduct. Woellhaf, 105 P.3d at 214. After all, the power to define criminal
offenses and to prescribe the punishments to be imposed upon defendants found
guilty of those offenses lies solely with the legislature. Reyna-Abarca, ¶ 49, 390 P.3d

16

16a

at 824. Consequently, to determine whether a punishment imposed following a
c

c

a d

da

d

b

ad

,

examine the punishment authorized by the legislature for that conviction. Id. at
¶ 50, 390 P.3d at 824. If the legislature has not authorized multiple punishments,
then the protection against double jeopardy prohibits the imposition of multiple
punishments. Id. I

a d,

D

b

J

ad

Ca

b d

constitutional principle of separation of powers by ensuring that courts do not
exceed their own authority by imposing multiple punishments not authorized by
a
¶32

.

Woellhaf, 105 P.3d at 214.

The General Assembly established a single offense of second degree assault

that may be committed in alternative ways. § 18-3-203(1), C.R.S. (2019). It did not
authorize multiple punishments for second degree assault based on the same
criminal conduct.

Id.

Therefore, by entering two second degree assault

convictions for the same criminal conduct, the trial c

a dR

b

be free from double jeopardy. See People v. Denhartog, 2019 COA 23, ¶ 74, 452 P.3d
148, 160.
¶33

The third degree assault conviction is equally problematic for a different

reason. The General Assembly has decreed that when an offense is a lesser
included offense of another, the defendant

17

17a

a

b

c

c d

b

offenses. § 18-1-408(1), C.R.S. (2019). Simultaneous convictions for a charged
offense and a lesser included offense give rise to multiplicity issues. See id.
Here, it is undisputed that third degree assault is a lesser included offense

¶34

of second degree assault. It is also uncontested that the three offenses in question
stemmed from the same criminal conduct. See People v. Rock, 2017 CO 84, ¶ 17,
402 P.3d 472, 478 (recognizing that convictions for two separate offenses, where
c

a

b

, ca c a

stand if the offenses were committed by distinctly different conduct ). Thus,
Rigsby may not stand convicted of both second degree assault and third degree
assault.
The appropriate remedy for R

¶35

b

multiplicitous convictions is to

instruct the trial court to merge all the convictions into a single conviction for
second degree assault. See Halaseh v. People, 2020 CO 35M, ¶ 10, 463 P.3d 249, 252
(observing that when multiplicitous convictions are involved, we instruct the trial
c

c

c

b a

a ca

a

a d

a

produce the most convictions and the longest sentences, in order to maximize the
c

d c ); Wood, ¶ 34, 433 P.3d at 594 (clarif

a

a

mittimus provides that two multiplicitous convictions merge . . . , the defendant is
afforded the protection to which he is entitled under the double jeopardy clause[s]
just the same as when a mittimus indicates that one of two multiplicitous

18

18a

c

c

aca d ). Correspondingly, the trial court should leave only one

sentence in place: one of the two concurrent five-year prison sentences.

IV. Conclusion
¶36

We conclude that the division erred. The second degree assault guilty

verdicts, on the one hand, and the third degree assault guilty verdict, on the other,
are not mutually exclusive.

Therefore, we reverse the division

d

.

Because the convictions are multiplicitous, however, we remand to the court of
appeals with instructions to return the case to the trial court to merge the
convictions into a single second degree assault conviction and to leave in place
only one sentence (one of the two concurrent five-year prison sentences imposed).

JUSTICE GABRIEL dissents.

19

19a

JUSTICE GABRIEL, dissenting.
Perceiving this case to involve an issue of multiplicity and merger, and not

¶37

one of legally and logically inconsistent verdicts, the majority reverses the
judgment of the division below. Maj. op. ¶¶ 3 5, 28 36. The majority reaches this
c

c

a d

ac

a

d

D

R

b

c

c

second degree assault (intent to cause bodily injury, causing serious bodily injury),
second degree assault (reckless conduct), and third degree assault (negligent
conduct with a deadly weapon) necessarily means that the jury found that Rigsby
was aware of the risk of injury presented by his conduct and unaware of that same
risk at the very same time.
In my view, this case does not present an issue of multiplicity and merger,

¶38

which implicates double jeopardy concerns. Rather, it presents a question of due
c

a d

ac

a d

da

a

a

db

da

a

ab

doubt every element of the crimes charged. Because I believe, contrary to the
a

,

a

b

a

a d

ca

c

a

found that Rigsby was aware of the risk of injury to the victim and unaware of that
same risk at the same time based on the same conduct, I would conclude that
a

ab d

b

dc a d

to a new trial.
¶39

Accordingly, I respectfully dissent.

1

20a

a R

b

d

I. Factual Background
¶40

The material facts are not disputed. In the course of a bar fight, Rigsby hit

the victim in the face with a glass, causing the victim substantial injuries. Based
on this single incident, the prosecution charged Rigsby with three separate counts
of second degree assault:
Second degree assault (intent to cause bodily injury, causing serious bodily
injury), which required the prosecution to prove that Rigsby, with intent to
cause bodily injury to another, caused serious bodily injury to another,
§ 18-3-203(1)(g), C.R.S. (2019);
Second degree assault (reckless conduct), which required the prosecution to
prove that Rigsby recklessly caused serious bodily injury to the victim by
means of a deadly weapon, § 18-3-203(1)(d); and
Second degree assault (causing bodily injury with a deadly weapon), which
required the prosecution to prove that Rigsby, with intent to cause bodily
injury to another, caused such injury by means of a deadly weapon,
§ 18-3-203(1)(b).
¶41

The case proceeded to trial, and at trial, the court instructed the jury on the

three above-described counts. In addition, the court instructed the jury on, among
other offenses, third degree assault (negligent conduct with a deadly weapon) as
a lesser included offense solely of second degree assault (causing bodily injury

2

21a

with a deadly weapon). This lesser included offense required the prosecution to
prove, as pertinent here, that Rigsby, with criminal negligence, caused bodily
injury to the victim by means of a deadly weapon. § 18-3-204(1)(a), C.R.S. (2019).
The court did not instruct the jury on third degree assault (negligent conduct with
a deadly weapon) as a lesser included offense of either of the other two second
degree assault counts.
¶42

In addition to the foregoing, the trial court instructed the jury on the mental

states set forth in the elemental instructions. In particular, the court correctly
instructed the jury that (1) a

ac

a

conscious objective is to cause the specific result proscribed by the statute defining
; (2) a

ac

c

c

c

d

ad a

substantial and unjustifiable risk that a result will occur or that a circumstance
; a d (3) a

ac

c

a

c

,

a

deviation from the standard of care that a reasonable person would exercise, he
fails to perceive a substantial and unjustifiable risk that a result will occur or that
ac c

a c

. See § 18-1-501(3), (5), (8), C.R.S. (2019). In accordance with

these instructions, to establish that Rigsby acted intentionally or recklessly, the
prosecution had to prove that Rigsby either had a conscious objective to cause a
specific result or consciously disregarded a substantial and unjustifiable risk that the
result would occur. To establish that Rigsby acted with criminal negligence, in

3

22a

contrast, the prosecution had to prove that Rigsby failed to perceive a substantial
and unjustifiable risk that the result would occur. The jury was not instructed that
proof of intent or recklessness was sufficient to establish criminal negligence, nor
did the prosecution so argue at trial.
¶43

The jury ultimately convicted Rigsby of second degree assault (intent to

cause bodily injury, causing serious bodily injury), second degree assault (reckless
conduct), and third degree assault (negligent conduct with a deadly weapon) as a
lesser included offense of second degree assault (causing bodily injury with a
deadly weapon). The jury did not, however, convict Rigsby of third degree assault
(negligent conduct with a deadly weapon) as a lesser included offense of either of
the second degree assault counts of conviction.
¶44

Rigsby appealed, arguing, as pertinent here, that his convictions were

legally and logically inconsistent because he could not have had a conscious
objective to cause bodily injury to the victim, nor could he have consciously
disregarded a substantial and unjustifiable risk that his conduct would cause
serious bodily injury to the victim, while at the same time failing to perceive the
risk of bodily injury to the same victim based on the same act. In other words,
Rigsby contended that he could not simultaneously act consciously to cause injury
and fail to perceive the risk of the same injury based on the same conduct. The
division below agreed and reversed R

b

4

23a

c

c

, People v. Rigsby, 2018

COA 171, ¶¶ 6 19, __ P.3d __, a d

a

d

P

a

certiorari.

II. Analysis
Ib

¶45

b add

a d

c

P

c

,

ad

first time before us, that Rigsby forfeited his argument that the verdicts here were
a
c

a d

ca

,a dI

c
a

.
I

I

c d

c

d a

R
a

b

a a

and conclusions in this case.

A. Preservation
¶46

Relying principally on a concurring opinion from a decision of the Maryland

Court of Appeals, the People argue that Rigsby did not preserve and therefore
forfeited the assertion that he raises in this court. As the majority observes,
however, the People expressly conceded in the division below that Rigsby
preserved this issue. Maj. op. ¶ 13.
¶47

It is unclear to me why the People believe that they can concede preservation

of an issue in the court of appeals and then take the opposite position in this court
(apparently not recognizing the irony of their asserting a waiver when they
themselves arguably waived such an assertion). Needless to say, arguments
regarding waivers and forfeitures do not operate solely against criminal
defendants; they work both ways. In addition, we have long made clear that the

5

24a

ac

a
a
c

.

a

c

c b d

a
ca

a d

a
c

c
a

a

Domingo-Gomez v. People, 125 P.3d 1043, 1049 (Colo. 2005). In

my view, conceding in the court of appeals that a defendant preserved an
argument and then arguing in this court that the defendant waived or forfeited
that very same argument can be read to suggest too much of a focus on just
winning.
¶48

In any event, like the majority, maj. op. ¶¶ 12 13, I believe that Rigsby

preserved the issue that he asserts before us, and I next turn to my view of the
merits of this case.

B. Inconsistent Verdicts
¶49

Ac

a d

da

s constitutional rights to due process of law and a fair

trial require the prosecution to prove each element of a charged offense beyond a
reasonable doubt. See People v. Delgado, 2019 CO 82, ¶ 22, 450 P.3d 703, 707. When,
however, a defendant is convicted of two crimes requiring the jury to have found
the existence of mutually exclusive elements, the defendant cannot be said to have
been convicted of each crime beyond a reasonable doubt. See id. at ¶ 23, 450 P.3d
at 707. This is because a finding of contradictory elements necessarily expresses a
finding of doubt. Id.

6

25a

¶50

Applying this principle in a recent case, we opined that a defendant cannot

have been convicted beyond a reasonable doubt of both robbery, which is an
unlawful taking of an item with force, and theft, which is an unlawful taking of an
item without force, based on the same taking because such a conviction would
mean that the jury both convicted and absolved the defendant of taking the item
without force. Id. at ¶¶ 2 5, 450 P.3d at 704. And

c

a

element of one of the [charged] crimes negates the existence of a necessary element
of the other [charged] crime . . . [,] the verdicts are legally and logically
c

a d

d

b

a

d.

People v. Frye, 898 P.2d 559, 569 n.13

(Colo. 1995); accord Delgado, ¶ 20, 450 P.3d at 707.
¶51

A

d

c

,Ib

a R

b

c

c

for second degree assault (intent to cause bodily injury, causing serious bodily
injury) and second degree assault (reckless conduct) are legally and logically
inconsistent with his conviction for third degree assault (negligent conduct with a
deadly weapon). As noted above, the second degree assault convictions required
the jury to find, beyond a reasonable doubt, that Rigsby either consciously acted to
ca

c

consciously disregarded the risk of such injury. The

third degree assault conviction, in contrast, required the jury to find, beyond a
reasonable doubt, that Rigsby failed to perceive the risk of the same injury based on
the same conduct. It is both legally and logically impossible, however, for Rigsby

7

26a

a

ac d c

c

c a

a a

ca

c

a

to perceive the risk of the same injury based on the same conduct at the same time.
¶52

In light of the foregoing, I do not believe that these verdicts can be sustained.

See Delgado, ¶¶ 20 23, 450 P.3d at 707; Frye, 898 P.2d at 569 n.13. To do so would
deprive Rigsby of his rights to due process and a fair trial.

See Delgado,

¶¶ 22 23, 450 P.3d at 707. Accordingly, I would affirm the judgment of the
division below and remand this case for a new trial. See id. at ¶ 45, 450 P.3d at 710
( T
¶53

d

a

c

dc

a . ).

In reaching this conclusion, I am not persuaded by the

a

a,

by operation of section 18-1-503(3), C.R.S. (2019), even if the verdicts in this case
were logically inconsistent, they were not legally inconsistent. Maj. op. ¶¶ 4, 24.
Section 18-1-503(3) states, I a statute provides that criminal negligence suffices
to establish an element of an offense, that element also is established if a person
ac

c

,

,

a

. In light of this provision, the majority

concludes that, by operation of law, proof of intent and recklessness establishes
criminal negligence and therefore, even if the verdicts here were logically
inconsistent, they were not legally inconsistent. Maj. op. ¶ 23. In so concluding,
the majority deems it inconsequential that the jury was not instructed that proof
of intent and recklessness establishes criminal negligence. Id. at ¶ 25. For several
reasons, I disagree.

8

27a

¶54

First, in reaching its conclusion, the majority starts from the premise that an

inconsistent verdict analysis turns on the statutory elements. Id. at ¶ 18. As noted
ab

,

,a

c

dc a a

d

contradictory findings as to the elements of the crimes charged because a finding of
contradictory elements necessarily expresses a finding of reasonable doubt. See
Delgado, ¶ 23, 450 P.3d at 707.
¶55

Second, although the majority perceives no legal inconsistency in the

verdicts at issue, it never explains how a jury can find

either factually or legally

that a defendant both knew of a risk of injury to a victim and did not know of that
same risk at the same time and based on the same conduct. Nor, in my view, does
anything in section 18-1-503(3) resolve such inconsistent findings, at least absent a
jury instruction advising the jury that sufficient proof of intent and recklessness
establishes criminal negligence.
¶56

Third, and related to the last point, although the majority deems it

inconsequential that the jury was not instructed that proof of intent and
recklessness establishes criminal negligence, maj. op. ¶ 25, I believe that such an
instruction would have allowed
verdicts.

ac a

c

c

Specifically, had the jury been instructed that proof of intent or

recklessness establishes criminal negligence, then we would have an explanation
c

d cts.

9

28a

Absent such an instruction,

however, we are left with findings that Rigsby simultaneously knew of the risk of
injury to the victim arising from his conduct and did not know of that same risk,
and nothing in the record allows us to determine, absent speculation, which of the
charges the jury found to be supported by the evidence.

Because such

contradictory findings necessitate a conclusion of reasonable doubt, I believe that
a new trial is required. See Delgado, ¶ 23, 450 P.3d at 707.
¶57

I am likewise unpersuaded by the P

somewhat different, albeit

related, assertion that the verdicts here are not legally inconsistent because, by
operation of section 18-1-503(3), third degree assault is a lesser included offense of
second degree assault.
¶58

As a gene a

a

, an offense is a lesser included offense of another

offense if the elements of the lesser offense are a subset of the elements of the
greater offense, such that the lesser offense contains only elements that are also
included in the elements of the greater offense.

Reyna-Abarca v. People, 2017 CO

15, ¶ 64, 390 P.3d 816, 826. Thus, in the typical lesser included offense scenario,
proof of the greater offense necessarily establishes all of the elements of the lesser
offense, and convictions on both the greater and lesser offenses would not be
legally and logically inconsistent.
¶59

Here, the People argue that third degree assault (negligent conduct with a

deadly weapon) is a lesser included offense of both second degree assault (intent

10

29a

to cause bodily injury, causing serious bodily injury) and second degree assault
(reckless conduct) because, under section 18-1-503(3), proof of intent and
recklessness establishes criminal negligence. Even assuming that the People are
correct in this regard, however, for several reasons, I do not believe that their
analysis solves the problem of the mutually inconsistent verdicts in this case.
¶60

First, as noted above, the jury was not instructed that third degree assault

(negligent conduct with a deadly weapon) is a lesser included offense of either
second degree assault (intent to cause bodily injury, causing serious bodily injury)
or second degree assault (reckless conduct). Nor did the jury so find. Accordingly,
the fact that the third degree assault charge might, by operation of section
18-1-503(3), be deemed to be a lesser included offense of the two second degree
assault charges on which Rigsby was convicted does not resolve the legal and
logical inconsistency in what the jury actually found in this case.
¶61

Second, applying section 18-1-503(3) here does not change the fact that

Rigsby could not have

c

da d

d d

ca

c

a d, a

the same time, failed to perceive the risk of the same injury based on the same
conduct. As the Texas Court of Criminal Appeals stated, c

T a

a a

to section 18-1-503(3) in a substantially similar context, a guilty verdict on what is
deemed to be a greater offense under the statute

a

ca

c d

a

verdict on the lesser offense. Saunders v. State, 913 S.W.2d 564, 572 (Tex. Crim.

11

30a

App. 1995). It does not, however, resolve the conflict in mutually inconsistent
verdicts. See id. at 572 73.
¶62

In this regard, the C

c c

S

C

d c

State v. Chyung,

157 A.3d 628, 642 43, (Conn. 2017), is instructive. In Chyung, the jury convicted
the defendant of both murder and first degree manslaughter with a firearm. Id. at
632. The defendant moved for a judgment of acquittal and a new trial, arguing
that the verdicts were legally inconsistent because to convict him of murder, the
jury had to find that he had the specific intent to kill the victim, whereas, to convict
him of first degree manslaughter, the jury had to find that he had acted recklessly,
and those mental states are inconsistent. Id. T

a c

d

d

d

da

motion, concluding that double jeopardy principles required that the
manslaughter conviction be vacated because it was a lesser included offense of the
murder conviction.

Id. The Connecticut Supreme Court reversed, however,

concluding that because the verdicts were legally inconsistent and because neither
the supreme court nor the trial court could know which charge the jury found to
be supported by the evidence, neither verdict could stand and a new trial was
required. Id. at 632 33.
¶63

In so concluding, the court noted, as pertinent here, that although its prior

case law had made clear that first degree manslaughter is a lesser included offense
of murder, the case law also made clear that in reaching this determination, the

12

31a

court was applying an exception to the ordinary rule that, for a crime to be a lesser
included offense, proof of the elements of the greater offense must necessarily
establish all of the elements of the lesser offense. See id. at 642 43. Because,
however, proof of murder did not necessarily establish all of the elements of first
degree manslaughter (because first degree manslaughter required a different
mental state from murder), the fact that first degree manslaughter is a lesser
c d d

d

dd

c

c

dc ,

and both verdicts had to be vacated. Id. at 643.
¶64

In my view, the same principle applies in this case. It may well be that, by

operation of section 18-1-503(3), third degree assault (negligent conduct with a
deadly weapon) might be deemed a lesser included offense of second degree
assault (intent to cause bodily injury, causing serious bodily injury) and second
degree assault (reckless conduct). But this does not resolve the inconsistency
b

d
ca

c

a,
a d,

a d, R

b

a d,

a

c
d

da d
c

d d
sk of

the same injury based on precisely the same conduct at precisely the same time.
Nor can we know which of the charges the jury found to be supported by the
evidence. Chyung, 157 A.3d at 632.
¶65

Finally, I note that the majority rests its conclusion on principles of

multiplicity and merger, see maj. op. ¶¶ 3 5, 28 35, which principles are grounded

13

32a

in the Double Jeopardy Clause of the Constitution, see, e.g., Woellhaf v. People,
105 P.3d 209, 214 (Colo. 2005). This case, however, does not involve a matter of
d

b

a d . Ra

,

a

a

R

b

d

c

law under the Fifth and Fourteenth Amendments, to a fair trial under the Sixth
Amendment, and to have the jury find beyond a reasonable doubt all elements of
the crimes charged before convicting him. See Delgado, ¶ 22, 450 P.3d at 707.
B ca

a

a a

d

a

c

dc

this case can stand in light of what I believe to be the applicable constitutional
c

, I

c

d a

a

d c

d

inconsistent verdicts.

III. Conclusion
R

¶66

b

c

c

ca

d

consciously perceived the risk of, or consciously intended to ca

d

a R

,

c

b

injury while at the same time, and based on the very same conduct, he failed to
perceive the risk of that same injury. Unlike the majority, I believe that the
b
d

d

R

b

a
dc

b

a
a

a d

c
ca

c
c

c

a
. Acc d

a s
,

like the division below, I believe that settled law requires that we vacate those
verdicts and remand this case for a new trial.
¶67

For these reasons, I respectfully dissent.

14

33a

COLORADO COURT OF APPEALS

2018COA171

Court of Appeals No. 16CA0138
Boulder County District Court No. 14CR1706
Honorable Maria E. Berkenkotter, Judge
The People of the State of Colorado,
Plaintiff-Appellee,
v.
Derek Michael Rigsby,
Defendant-Appellant.
JUDGMENT REVERSED AND CASE
REMANDED WITH DIRECTIONS
Division I
Opinion by JUDGE TAUBMAN
Terry and Fox, JJ., concur
Announced December 13, 2018
Cynthia H. Coffman, Attorney General, Jillian J. Price, Assistant Attorney
General, Denver, Colorado, for Plaintiff-Appellee
Megan A. Ring, Colorado State Public Defender, Jessica Sommer, Deputy State
Public Defender, Denver, Colorado, for Defendant-Appellant

34a

¶1

Defendant, Derek Michael Rigsby, appeals his judgment of

conviction of two counts of second degree assault and one count of
third degree assault arising from his involvement in a bar fight.
Rigsby contends that (1) the district court erred in precluding prior
consistent statements; (2) his convictions are logically and legally
inconsistent because they relate to the same conduct yet
contemplate separate mental states of culpability; and (3) his
multiple convictions for second degree assault based on the same
criminal act violate the Double Jeopardy Clause. Because we agree
with his second contention, we reverse and remand to the district
court for a new trial.
I. Background
¶2

In September 2014, Rigsby, along with his girlfriend, Leah

Lusk, and two of their friends, Katie Pace and Jordan Kinnett, went
to a bar. Lusk and Pace left the company of Rigsby and Kinnett to
go to the dance floor, where Nathan Mohrman and Benjamin
Galloway began talking to the women. Rigsby testified that Pace
looked uncomfortable and annoyed, and he received a text from
Lusk directing him to act like Pace’s boyfriend.
1
35a

¶3

The following events were disputed at trial. Rigsby testified

that he stepped between Mohrman and Pace, stating that “she’s not
interested.” He testified that Mohrman initially backed away but
then grabbed Rigsby by the shoulder and began yelling at him,
forcing Rigsby to use his elbow to push Mohrman away. Rigsby
recalled that, at this point, he was attacked from behind and
received multiple blows to the head before, fearing for his life, he
swung at his attacker. He testified that he failed to realize that he
was holding a glass in his hand and did not notice his hand was
bleeding until bar staff escorted him out of the bar. He went home
without contacting police.
¶4

Mohrman testified that he spoke to Lusk and Pace for about

five minutes before he and Galloway stepped away to stand by
themselves. He stated that, after moving away, Rigsby knocked into
him, causing Mohrman to spill his drink. He and Galloway
asserted that, as Mohrman reached out to tap Rigsby on the
shoulder, Rigsby rapidly turned around and struck Mohrman in the
face with a glass. A bystander reported that Rigsby hit Mohrman in
the face with a glass, and it seemed unprovoked by Mohrman.

2
36a

Mohrman immediately went to the hospital and received several
stitches.
¶5

The following day, Rigsby contacted police and recounted the

night’s events to a detective. The district attorney charged Rigsby
with three counts of second degree assault based on his act of
hitting Mohrman in the face with a glass. The jury convicted him of
two counts of second degree assault, pursuant to section 18–3–
203(1)(d), (g),1 C.R.S. 2018, and one count of third degree assault, a
lesser included offense under section 18–3–204(1)(a), C.R.S. 2018.
The trial court sentenced him to five years in the custody of the
Department of Corrections for the second degree assault convictions
and sixty-six days in jail for the third degree assault conviction,
with all sentences running concurrently. Rigsby now appeals his
convictions and requests a new trial.

As relevant here, a person commits second degree assault if he or
she “recklessly causes serious bodily injury to another person by
means of a deadly weapon,” § 18–3–203(1)(d), C.R.S. 2018, or
“[w]ith intent to cause bodily injury to another person, he or she
causes serious bodily injury to that person or another,” § 18–3–
203(1)(g).

1

3
37a

II. Inconsistent Verdicts
¶6

Rigsby contends that the jury verdicts are logically and legally

inconsistent because the second degree assault convictions
required the jury to determine he was aware of the risk of bodily
injury, and thus acted with intent or recklessly, while the third
degree assault conviction required the jury to find he was unaware
of the risk of bodily injury. We agree.
A. Standard of Review
¶7

We review de novo whether a conviction must be set aside

based on inconsistency in the jury’s verdicts. People v. Zweygardt,
2012 COA 119, ¶ 30, 298 P.3d 1018, 1024.
B. Applicable Law
¶8

Courts assume verdicts are consistent when each offense

requires proof of separate and distinct elements; however, this is
not the case when jury verdicts convict a defendant of multiple
crimes and the existence of an element of one crime negates the
existence of a necessary element of another crime. See People v.
Frye, 898 P.2d 559, 569 n.13 (Colo. 1995) (stating that courts agree
verdicts are legally and logically inconsistent under these
circumstances). We cannot sustain legally and logically
4
38a

inconsistent verdicts. Id.; see also People v. White, 64 P.3d 864,
875 (Colo. App. 2002).
¶9

While acknowledging that legally and logically inconsistent

verdicts cannot be sustained, a division of our court stated that,
when the court encounters inconsistent verdicts, convictions should
merge to “maximize the effect of the jury’s verdict, retaining as
many convictions and upholding as many sentences as are legally
possible.” People v. Beatty, 80 P.3d 847, 853 (Colo. App. 2003); see
People v. Lee, 914 P.2d 441, 448 (Colo. App. 1995). Therefore, the
Beatty division held that the proper remedy for inconsistent verdicts
is to merge and maximize the convictions. 80 P.3d at 853.
However, more recently, a division of our court reasoned that
logically and legally inconsistent verdicts require a new trial
because we cannot reconcile the jury’s findings to determine its
intent; therefore, we must set aside the convictions and allow a jury
to make new findings supported by the evidence. See People v.
Delgado, 2016 COA 174, ¶¶ 32–33, 410 P.3d 697, 702 (rejecting the
reasoning in Beatty and Lee) (cert. granted Dec. 11, 2017).
¶ 10

The determination of whether verdicts are legally and logically

inconsistent, and thus negate each other, rests on the language in
5
39a

the applicable statutes. Id. at ¶ 16, 410 P.3d at 700. Section 18–3–
203(1)(d) requires a finding that a defendant acted recklessly in
causing serious bodily injury to convict for second degree assault.
Section 18–3–203(1)(g) requires a finding that a defendant intended
to cause, and actually caused, bodily injury to the victim to convict
for second degree assault. In contrast, section 18–3–204(1)(a), as
applicable here, required the jury to find that Rigsby acted with
criminal negligence in causing bodily injury with a deadly weapon
to convict for third degree assault.
¶ 11

A defendant acts recklessly2 or with intent3 when he or she

knows that certain actions could result in bodily injury and
disregards the risk or has a conscious objective to cause bodily
injury. See § 18–1–501(5), (8), C.R.S. 2018. A defendant acts with
criminal negligence when he or she “fails to perceive a substantial
and unjustifiable risk that a result will occur or that a circumstance
exists.” § 18–1–501(3).
“A person acts recklessly when he consciously disregards a
substantial and unjustifiable risk that a result will occur or that a
circumstance exists.” § 18–1–501(8), C.R.S. 2018 (emphasis
added).
3 “A person acts . . . ‘with intent’ when his conscious objective is to
cause the specific result proscribed by the statute defining the
offense.” § 18–1–501(5) (emphasis added).
2

6
40a

¶ 12

The Beatty division concluded, and we agree, that a finding of

an intentional mens rea subsumes a reckless mens rea.
Accordingly, a finding of intentional conduct does not negate a
reckless mens rea. Beatty, 80 P.3d at 853–54; see § 18–1–503(3),
C.R.S. 2018. Thus, if a defendant is convicted of one offense for
acting recklessly and another for acting intentionally with regard to
the same conduct, the convictions are consistent.
¶ 13

However, to act recklessly or with intent requires that a

defendant act with knowledge of a result, or potential result, while
to act with criminal negligence requires that a defendant act
without knowledge of a result. Therefore, separate convictions for
both knowing and negligent mental states for the same act cannot
be sustained because a defendant cannot consciously act and also
fail to perceive a risk simultaneously.4 See Delgado, ¶ 31, 410 P.3d
at 702.
C. Analysis
¶ 14

We agree with the remedy announced in Delgado that

convictions based on inconsistent mentes reae cannot stand. Thus,
Because it was not raised, we do not address whether criminally
negligent homicide may be treated as a lesser included or lesser
nonincluded offense of reckless or intentional homicide.

4

7
41a

we reject the remedy set forth in Beatty that inconsistent verdicts
should be remedied by vacating one conviction so as to maximize
the jury’s verdict.5 Rigsby’s convictions of two counts of second
degree assault and one count of third degree assault are based on
legally and logically inconsistent verdicts. Therefore, they cannot be
sustained. Delgado, ¶ 32, 410 P.3d at 702. The jury convicted
Rigsby based on three mental states for the same criminal act —
hitting Mohrman in the face with a glass. While the convictions on
the two counts of second degree assault are not inconsistent, we
conclude that Rigsby could not have simultaneously acted with
knowledge — intentionally or recklessly — to cause bodily injury
while also acting without knowledge, unaware of the risk of causing
bodily injury.
¶ 15

We recognize that the Zweygardt division reached the opposite

conclusion, determining that “proof that a defendant was reckless
necessarily establishes that he or she acted with criminal
negligence.” Zweygardt, ¶ 33, 298 P.3d at 1025. Thus, the

Though the author judge concurred with the division’s decision in
People v. Beatty, 80 P.3d 847 (Colo. App. 2003), he is persuaded by
the court’s later reasoning in People v. Delgado, 2016 COA 174, 410
P.3d 697, regarding the remedy for inconsistent verdicts.

5

8
42a

Zweygardt division concluded that the mental states of recklessness
and criminal negligence do not negate each other. Id. We disagree
with this conclusion because it effectively eviscerates the Frye
court’s holding that legally and logically inconsistent verdicts
cannot stand.6 The plain language of section 18–1–501(8) — the
statute defining recklessness — requires a court fact finder to
determine that a defendant was aware of a certain risk, while
section 18–1–501(3) — the statute defining criminal negligence —
requires a fact finder to determine the defendant was unaware of a
certain risk. While a defendant may be charged on both theories of
recklessness and negligence, we conclude, contrary to the analysis
in Zweygardt, that a defendant’s convictions based on both theories
are legally and logically inconsistent. Id.; see Frye, 898 P.2d at 569
n.13.
¶ 16

The People argue that, when we determine verdicts are

inconsistent, we should maximize the effect of the jury’s verdicts by
employing the approach that yields the longest sentence. See

The decisions of other divisions of our court are not binding on
our division. People v. Thomas, 195 P.3d 1162, 1164 (Colo. App.
2008).

6

9
43a

People v. Vigil, 251 P.3d 442, 450 (Colo. App. 2010); see also Beatty,
80 P.3d at 853. We disagree.
¶ 17

Following this logic, the People contend that the two second

degree assault counts should merge, resulting in Rigsby being
convicted of recklessly causing serious bodily injury by means of a
deadly weapon. The People further argue that recklessness
inherently encompasses criminal negligence, so there is no legal or
logical inconsistency between the second and third degree assault
convictions, and therefore, a new trial is unnecessary. See People v.
Hall, 999 P.2d 207, 219–20 (Colo. 2000).
¶ 18

However, we do not read Hall as the People do. In fact, Hall

distinguishes negligence from recklessness by asserting “even if [he
or] she should be, a person who is not actually aware that [his or]
her conduct creates a substantial and unjustifiable risk is not
acting recklessly.” Id. at 220.
¶ 19

Thus, we disagree with the People’s contention that a new trial

is unnecessary and that Rigsby’s three convictions should merge.
We cannot determine the jury’s intent because the verdicts are
logically and legally inconsistent. Further, requiring a new trial
here is not an academic exercise because the second degree assault
10
44a

convictions are class 4 felonies (with a five-year sentence) but the
third degree assault conviction is a class 1 misdemeanor (with a
sixty-six day sentence). 7 The convictions must be set aside to allow
a jury to consider the charges against Rigsby anew.
III. Double Jeopardy
¶ 20

Rigsby contends, the People concede,8 and we agree that

Rigsby’s three convictions must merge because they are
multiplicitous and violate the Double Jeopardy Clause. We address
this issue because it could arise on remand.
A. Applicable Law
¶ 21

The United States and Colorado Constitutions preclude a

defendant from being convicted and punished twice for the same
crime. U.S. Const. amends. V, XIV; Colo. Const. art. II, § 18. If the
legislature intended to provide multiple punishments for the same
criminal conduct, the prosecution may charge a defendant with
separate counts based on alternative methods of committing a
Class 4 felonies carry a presumptive sentencing range of two to
six years imprisonment. § 18–1.3–401(1)(a)(V)(A), C.R.S. 2018.
Class 1 misdemeanors carry a presumptive sentencing range of six
to eight months imprisonment. § 18–1.3–501(1)(a), C.R.S. 2018.
8 We rely on our own legal interpretations and are not bound by the
concessions of the parties. See People v. Backus, 952 P.2d 846, 850
(Colo. App. 1998).
7

11
45a

single offense. People v. Abiodun, 111 P.3d 462, 467 (Colo. 2005).
However, a defendant is constitutionally protected from multiple
convictions for the same offense when the relevant statute does not
create separate offenses for the same criminal conduct. See id.
B. Analysis
¶ 22

If, on remand, the jury again convicts Rigsby of both second

degree assault counts, the convictions must merge as discussed
above. Because the second degree assault statute provides
alternative methods of committing the same offense, it cannot
prescribe multiple punishments for the same criminal conduct.
Because the third degree assault conviction is for a lesser included
offense, the People concede that Rigsby may not be convicted on
remand of both second and third degree assault based on the same
act. See Page v. People, 2017 CO 88, ¶ 9, 402 P.3d 468, 470 (“A
conviction for an offense that is a lesser included offense of a
greater offense must merge into the conviction for the greater
offense.”).
IV. Exclusion of Evidence
¶ 23

Since we reverse the convictions and remand for a new trial,

we need not address whether the district court properly exercised
12
46a

its discretion in precluding prior consistent statements offered by
Rigsby. This prior ruling shall not bind any party at retrial.
V. Conclusion
¶ 24

Accordingly, the convictions are reversed, and the case is

remanded to the district court for a new trial.
JUDGE TERRY and JUDGE FOX concur.

13
47a

1

1

------------------------------------------------------------

2

DISTRICT COURT
!
BOULDER COUNTY
!
COLORADO
!
1777-6th Street
!
Boulder, CO 80302
!
------------------------------------!
!
PEOPLE OF THE STATE OF COLORADO
!
!
v.
!
!
DEREK MICHAEL RIGSBY
! *FOR COURT USE ONLY*
! Case No. 14CR1706
------------------------------------!
!
For the People:
!
!
Erica Baasten, Esq.
!
Jack Peters, Esq.
!
!
For the Defendant:
!
!
Jason Sharman, Esq.
!
Nelissa Milfeld, Esq.
!
-----------------------------------------------------------The matter came on for Jury Trial on September
30, 2015, before the HONORABLE MARIA BERKENKOTTER,
Judge of the District Court and a Jury of Twelve.
------------------------------------------------------------

3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

48a

2

1
2

THE COURT:

People v. Derek Rigsby.

3
4

MS. BAASTEN:

Counsel, enter appearances.
Erica Baasten with advisory witness

Chuck Heidel.

5
6

We are on the record here in 14CR1706,

MR. SHARMAN:
behalf of Mr. Rigsby.

7

THE COURT:

Jason Sharman and Nelissa Milfeld on
He appears on bond.

Good morning.

We are here for our

8

third day of trial.

9

with the attorneys about sort of the limits of them walking

A couple minutes ago I talked briefly

10

around during closing, which I know they understand.

11

They're the same as the limits before and I know they'll

12

keep their voice up for Ms. Butler, and if not, she's going

13

to tell them and maybe they can try the microphone or

14

retreat back to the podium.

15

In terms of the instructions, just to close the

16

loop, there's an FTR record from the jury conference,

17

instruction conference that we had last night.

18

was done, Ms. Alford confirmed with the attorneys that the

19

replacement instructions were correctly replaced, that they

20

were in the right order.

21

been distributed already to everyone.

22

I think we are good to go.

She made copies.

After that

They have now

I have the originals.

Ms. Baasten, is that correct?

23

MS. BAASTEN:

Yes, Your Honor.

24

MR. SHARMAN:

Your Honor, we did make one small

25

change.

We noticed on Instruction 14 the reference to

49a

3

1

Instruction 16 was omitted.

2

hand.

3

THE COURT:

I assume it was fixed all by

She did.

Then there's an issue about

4

exhibits, for the record.

We will take that up after we are

5

done with everything else.

I'm going to ask Ms. Alford to

6

see if our jury is ready.

7

MR. SHARMAN:

Your Honor, as far as the

8

instructions go, now that the packet is complete, we want to

9

formally object to the packet based on the fact we believe

10
11
12
13

self-defense is an affirmative defense to all charges.
THE COURT:

Mr. Sharman, you previously asserted

these objections.
MR. SHARMAN:

We do that under the Federal and

14

Colorado constitutions, Mr. Rigsby's right to a fair trial

15

and due process based upon a very recent Court of Appeals

16

case where the failure to object to the complete packet was

17

based on prior waiver of the instruction.

18
19
20

THE COURT:

I think what you did was adequate.

I

don't think you have to state every single one.
MR. SHARMAN:

As far as a matter of closing, since

21

the district attorneys are doing the primary close and

22

rebuttal and splitting it up between the two of them, we

23

should be able to split up too.

24

make any objection, if necessary, at closing, and I'm going

25

to go do the actual closing.

50a

I'd like Ms. Milfeld to

Is that permissible?

4

1

THE COURT:

2

MR. SHARMAN:

3

THE COURT:

No.
Okay.

Thank you.

It's -- I understand the point you are

4

making about tag teaming, but it's like if you had a witness

5

and, you know, you had one of you doing the direct and then

6

on cross the other person was standing up and making the

7

objections.

8

also wouldn't allow.

9

It seems to me it's analogous to that, which I
Ms. Alford, bring in our jury.

Counsel, I normally ask the attorneys to waive the

10

reporting of the reading of the instructions.

11

can read along with me and if you are at any point in time

12

concerned that I had skipped a word, added a word, you of

13

course could stop me and bring that to my attention.

14

put it on the FTR also.

15
16

MS. BAASTEN:

Certainly you

I can

Ms. Baasten?
No objection to waiving the

transcription or recording of the reading.

17

THE COURT:

18

MR. SHARMAN:

Thank you.

Mr. Sharman.

Our appellate office did tell us we

19

are supposed to have this recorded, but that's only if we

20

find an error and then we need to raise it later.

21

(Jury entered courtroom.)

22

THE COURT:

Welcome back, ladies and gentlemen.

23

We are here for day three of our jury trial.

24

ready to -- I'm going to pause until everybody has the

25

headsets.

How is that?

Is it working?

51a

We are now

We are good.

If at

5

1

any time they stop working, let us know.

2

We are here for day three of our jury trial.

We

3

are now ready for the reading of the instructions.

4

Alford, did you give them their copies?

5

copies.

You can read along if you would like.

6

listen.

Do whatever works for you in terms of listening or

7

listening and reading along.

8
9

Ms.

Ms. Alford has
You can just

Jury instruction one, members of the jury, the
evidence in this case has been completed.

In a moment I

10

will read you jury instructions that contain the rules of

11

law you must apply to reach your verdict.

12

copies of what I read to take with you to the jury room, but

13

first, I want to mention a few things you need to keep in

14

mind when you are discussing this case in the jury room.

15

You will have

Until you have returned a verdict, you must not do

16

any research about this case or this kind of case using any

17

source including dictionaries, reference materials, Internet

18

or any other electronic means.

19

any way with anyone else about this case or this kind of

20

case until you have returned a verdict in court.

21

includes your family and friends.

22

or other electronic device, you must keep it turned off

23

during jury deliberations.

24
25

You must not communicate in

This

If you have a cell phone

It is my job to decide what rules of law apply to
the case.

While the attorneys may comment on some of these

52a

6

1

rules, you must follow the instructions I give you.

2

you disagree with or do not understand the reason for some

3

of these rules of law, you must follow them.

4

instruction describes all the law which must be applied.

5

The instructions must be considered together as a whole.

6

Even if

No single

During the trial you received all of the evidence

7

that you may properly consider in deciding the case.

8

decision must be made by applying the rules of law that I

9

give you to the evidence presented at trial.

Your

Remember you

10

must not be influenced by sympathy, bias or prejudice in

11

reaching your decision.

12

If you decide that the prosecution has proved

13

beyond a reasonable doubt that the defendant is guilty, it

14

will be my job to decide what the punishment will be.

15

making your decision you must not consider punishment at

16

all.

17

Do not draw any conclusions from the objections or from my

18

rulings on the objections.

19

questions I had to decide and should not influence your

20

thinking.

21

statement that was made during the trial, you must not

22

consider it in your deliberations.

23
24
25

In

At time during the trial, attorneys made objections.

These only related to legal

If I told you not to consider a particular

Finally, you should consider all the evidence in
light of your experience in life.
Instruction two:

The charge against the defendant

53a

7

1

is not evidence.

2

an accusation.

3

is not evidence that the defendant committed any crime.

The charge against the defendant is just

The fact that the defendant has been accused

4

Mr. Rigsby is charged with committing the crime of

5

assault in the second-degree, intent to cause bodily injury,

6

causing serious bodily injury, assault in the second-degree,

7

reckless, and assault in the second-degree, bodily injury

8

with a deadly weapon in Boulder County, Colorado on or about

9

September 26, 2015.

10

Mr. Rigsby has pleaded not guilty.

Instruction three:

Every person charged with a

11

crime is presumed innocent.

12

remains with the defendant throughout the trial and should

13

be given effect by you unless, after considering all of the

14

evidence, you are then convinced that the defendant is

15

guilty beyond a reasonable doubt.

16

This presumption of innocence

The burden of proof is upon the prosecution to

17

prove to the satisfaction of the jury beyond a reasonable

18

doubt the existence of all of the elements necessary to

19

constitute the crime charged.

20

Reasonable doubt means a doubt based upon reason

21

and common sense which arises from a fair and rational

22

consideration of all of the evidence or the lack of evidence

23

in the case.

24

speculative or imaginary doubt but such a doubt as would

25

cause reasonable people to hesitate to act in matters of

It is a doubt which is not a vague,

54a

8

1

importance to themselves.

2

that each and every element of a crime has been proven

3

beyond a reasonable doubt, you should find the defendant

4

guilty of that crime.

5

the prosecution has failed to prove any one or more of the

6

elements of a crime beyond a reasonable doubt, you should

7

find the defendant not guilty of that crime.

8
9

If you find from the evidence

If you find from the evidence that

Instruction four:

The number of witnesses

testifying for or against a certain fact does not, by

10

itself, prove or disprove that fact.

11

Instruction five:

You are the sole judges of the

12

credibility of each witness and the weight to be given the

13

witness's testimony.

14

the testimony given and the circumstance under which each

15

witness has testified.

You should carefully consider all of

16

For each witness, consider that person's

17

knowledge, motive, state of mind, demeanor and manner while

18

testifying.

19

strength of that person's memory, and how that person

20

obtains his or her knowledge.

21

witness may have to either side of the case and how each

22

witness might be affected by the verdict.

23

testimony of the witness is supported or contradicted by

24

other evidence in the case.

25

and circumstances shown by the evidence when you evaluate

Consider the witness's ability to observe, the

55a

Consider any relationship the

Consider how the

You should consider all facts

9

1

each witness's testimony.

2

testimony of a witness, part of it, or none of it.

3

Instruction six:

You may believe all of the

You are not bound by the

4

testimony of witnesses who have testified as experts.

5

credibility of an expert's testimony is to be considered as

6

that of any other witness.

7

witness's testimony, part of it or none of it.

8

you give the testimony is entirely your decision.

9

The

You may believe all of an expert

Instruction seven:

The weight

The credibility of a witness

10

may be challenged by showing that the witness has been

11

convicted of a felony.

12

factor you may consider in determining the credibility of a

13

witness.

14

is to be given to such a conviction.

15

tried for the crime charged in this case and no other.

16

may consider testimony of a previous conviction only in

17

determining the credibility of Mr. Rigsby as a witness and

18

for no other purpose.

19

credibility is to be determined in the same manner as any

20

other witness.

21

A previous felony conviction is one

It is up to you to determine what weight, if any,
Mr. Rigsby is to be
You

When the defendant testifies, his

Instruction eight:

A fact may be proven either --

22

by either direct or circumstantial evidence.

Under the law,

23

both are acceptable ways to prove something.

Neither is

24

necessarily more reliable than the other.

25

Direct evidence is based on firsthand observation

56a

10

1

of the fact in question.

2

that he looked out a window and saw snow falling might be

3

offered as direct evidence that it had snowed.

4

Circumstantial evidence is indirect.

For example, a witness's testimony

It is based

5

on observations of related facts that may lead you to reach

6

a conclusion about the fact in question.

7

witness's testimony that she looked out a window and saw

8

snow covering the ground might be offered as circumstantial

9

evidence that it had snowed.

10

Instruction nine:

For example, a

A crime is committed when the

11

defendant has committed a voluntary act prohibited by law,

12

together with a culpable mental state of mind.

13

act means an act performed consciously as a result of effort

14

or determination.

15

insufficient to prove that the defendant had the required

16

state of mind.

17

element of the crime as the act itself and must be proven

18

beyond a reasonable doubt either by direct or circumstantial

19

evidence.

20

Voluntary

Proof of the voluntary act alone is

The culpable state of mind is as much an

In this case, the applicable states of mind are

21

explained below.

22

when his conscious objective is to cause the specific result

23

prescribed by the statute defining the offense.

24

immaterial whether or not the result actually occurred.

25

A person acts intentionally or with intent

It is

A person acts recklessly when he consciously

57a

11

1

disregards a substantial and unjustifiable risk that a

2

result will occur or that a circumstance exists.

3

acts with criminal negligence when, through a gross

4

deviation from the standard of care that a reasonable person

5

would exercise, he fails to perceive a substantial and

6

unjustifiable risk that a result will occur or that a

7

circumstance exists.

8
9

Instruction ten:

A person

In this case, certain words and

phrases have particular meaning.

Accordingly, you are to

10

use the following definitions where these words and phrases

11

appear in instructions that define crime, defenses, specific

12

rules and verdict questions.

13

pain, illness or any impairment of physical or mental

14

condition.

15

other weapon, device, instrument, material or substance,

16

whether animate or inanimate, that in the manner it is used

17

or intended to be used is capable of producing death or

18

serious bodily injury.

19

Bodily injury means physical

Deadly weapon means a knife, bludgeon or any

Serious bodily injury means bodily injury which,

20

either at the time of actual injury or at a later time

21

involves a substantial risk of death, a substantial risk of

22

serious permanent disfigurement, a substantial risk of

23

protracted loss or impairment of the function of any part or

24

organ of the body, or breaks, fractures or burns of the

25

second or third-degree.

58a

12

1

Instruction 11:

Assault in the second-degree,

2

intent to cause bodily injury, causing serious bodily

3

injury.

4

second-degree, intent to cause bodily injury, causing

5

serious bodily injury are, one, that the defendant; two, in

6

the State of Colorado, at or about the date and place

7

charged; three, with intent; four, to cause bodily injury to

8

another person; five, caused serious bodily injury to Nathan

9

Mohrman; six, and that the defendant's conduct was not

The elements of the crime of assault in the

10

legally authorized by the affirmative defense in Instruction

11

16.

12

After considering all the evidence, if you decide

13

the prosecution has proven each of the elements beyond a

14

reasonable doubt, you should find the defendant guilty of

15

assault in the second-degree, intent to cause bodily injury,

16

causing serious bodily injury.

17

After considering all the evidence, if you decide

18

the prosecution has failed to prove any one or more of the

19

elements beyond a reasonable doubt, you should find the

20

defendant not guilty of assault in the second-degree, intent

21

to cause bodily injury, causing serious bodily injury.

22

Instruction 12:

Assault in the second-degree,

23

reckless.

24

second-degree reckless are, one, that the defendant; two, in

25

the State of Colorado at or about the date and place

The elements of the crime of assault in the

59a

13

1

charged; three, recklessly; four, caused serious bodily

2

injury to Nathan Mohrman; five, by means of a deadly weapon.

3

After considering all the evidence, if you decide

4

the prosecution has proven each of the elements beyond a

5

reasonable doubt, you should find the defendant guilty of

6

assault in the second-degree, reckless.

7

After considering all the evidence, if you decide

8

the prosecution has failed to prove any one or more of the

9

elements beyond a reasonable doubt, you should find the

10

defendant not guilty of assault in the second-degree,

11

reckless.

12

Instruction 13, if you are not satisfied beyond a

13

reasonable doubt that Mr. Rigsby is guilty of the offense

14

charged, he may, however, be found guilty of any lesser

15

offense, the commission of which is necessarily included in

16

the offense charged if the evidence is sufficient to

17

establish his guilt of the lesser offense beyond a

18

reasonable doubt.

19

The offense of assault in the second-degree,

20

reckless, as charged in the information in this case

21

necessarily includes the lesser events of assault in the

22

third-degree, reckless.

23

The elements of the crime of assault in the

24

third-degree, reckless, are, one, that the defendant; two,

25

in the State of Colorado, at or about the date and place

60a

14

1

charged; three, recklessly; four, caused bodily injury to

2

Nathan Morhman.

3

You should bear in mind that the burden is always

4

upon the prosecution to prove beyond a reasonable doubt each

5

and every element of any lesser included offense, which is

6

necessarily included in any offense charged in the

7

information.

8

criminal case the burden of calling any witnesses or

9

producing any evidence.

The law never imposes on a defendant in a

10

After considering all the evidence, if you decide

11

that the prosecution has proven each of the elements of the

12

crime charged or of a lesser included offense, you should

13

find the defendant guilty of the offense proven, and you

14

should so state in your verdict.

15

After considering all the evidence, if you decide

16

that the prosecution has failed to prove one or more of the

17

elements of the crime charged and one or more of the

18

elements of the lesser included offenses, you should find

19

the defendant not guilty of these offenses, and you should

20

so state in your verdict.

21

While you may find the defendant not guilty of the

22

crimes charged and the lesser included offenses, you may not

23

find the defendant guilty of one -- guilty of more than one

24

of the following offenses:

25

reckless, assault in the third-degree, reckless.

Assault in the second-degree,

61a

15

1

Instruction 14:

2

bodily injury with a deadly weapon.

3

crime of assault in the second-degree, bodily injury with a

4

deadly weapon are one, that the defendant; two, in the State

5

of Colorado at or about the date and place charged; three,

6

with intent; four, to cause bodily injury to another person;

7

five, caused such injury to Nathan Mohrman; six, by means of

8

a deadly weapon; seven, and that the defendant's conduct was

9

not legally authorized by the affirmative defense

10

Assault in the second-degree,
The elements of the

Instruction 16.

11

After considering all the evidence, if you decide

12

the prosecution has proven each of the elements beyond a

13

reasonable doubt, you should find the defendant guilty of

14

assault in the second-degree, bodily injury with a deadly

15

weapon.

16

After considering all the evidence, if you decide

17

the prosecution has failed to prove one or more of the

18

elements beyond a reasonable doubt, you should find the

19

defendant not guilty of assault in the second-degree, bodily

20

injury with a deadly weapon.

21

Instruction 15:

If you are not satisfied beyond a

22

reasonable doubt that Mr. Rigsby is guilty of the offense

23

charged, he may, however, be found guilty of any lesser

24

offense, the commission of which is necessarily included in

25

the offense charged if the evidence is sufficient to

62a

16

1

establish his guilt of a lesser offense beyond a reasonable

2

doubt.

3

The offense of assault in the second-degree,

4

bodily injury with a deadly weapon as charged in the

5

information in this case necessarily includes the lesser

6

offense of assault in the third-degree, negligence and

7

deadly weapon.

8

The elements of the crime of assault in the

9

third-degree, negligence and deadly weapon are, one, that

10

the defendant; two, in the State of Colorado, at or about

11

the date and place charged; three, with criminal negligence;

12

four, caused bodily injury to Nathan Morhman; five, by means

13

of a deadly weapon.

14

You should bear in mind that the burden is always

15

upon the prosecution to prove beyond a reasonable doubt each

16

and every element of any lesser included offense which is

17

necessarily included in any offense charged in the

18

information.

19

criminal case the burden of calling any witnesses or

20

producing any evidence.

The law never imposes upon a defendant in a

21

After considering all the evidence, if you decide

22

that the prosecution has proven each of the elements of the

23

crime charged, or of a lesser included offense, you should

24

find the defendant guilty of the offense proven and you

25

should so state in your verdict.

63a

17

1

After considering all the evidence, if you decide

2

that the prosecution has failed to prove one or more of the

3

elements of the crime charged and one or more elements of

4

the lesser included offenses, you should find the defendant

5

not guilty of these offenses and you should so state in your

6

verdict.

7

While you may find the defendant not guilty of the

8

crimes charged and the lesser included offenses, you may not

9

find the defendant guilty of more than one of the following

10

offenses:

11

a deadly weapon; assault in the third-degree, negligence and

12

deadly weapon.

13

Assault in the second-degree, bodily injury with

Instruction 16, the evidence presented in this

14

case has raised the affirmative defense of "defense of

15

person" as a defense to assault in the second-degree, intent

16

to cause bodily injury, causing serious bodily injury, and

17

assault in the second-degree, bodily injury with a deadly

18

weapon.

19

The defendant was legally authorized to use

20

physical force upon another person without first retreating

21

if, one, he used that physical force in order to defend

22

himself or a third person from what he reasonably believed

23

to be the use or imminent use of unlawful physical force by

24

that other person; and two, he used a degree of force which

25

he reasonably believed to be necessary for that purpose; and

64a

18

1

three, he was not the initial aggressor or if he was the

2

initial aggressor, he had withdrawn from the encounter and

3

effectively communicated to the other person his intent to

4

do so and the other person nevertheless continued or

5

threatened the use of unlawful physical force.

6

The prosecution has the burden to prove beyond a

7

reasonable doubt that the defendant's conduct was not

8

legally authorized by this defense.

9

burden of proof, the prosecution must disprove beyond a

In order to meet this

10

reasonable doubt at least one of the above numbered

11

conditions.

12

After considering all the evidence, if you decide

13

the prosecution has failed to meet this burden of proof,

14

then the prosecution has failed to prove the defendant's

15

conduct was not legally authorized by this defense which is

16

an essential element of assault in the second-degree, intent

17

to cause bodily injury, causing serious bodily injury, and

18

assault in the second-degree, bodily injury with a deadly

19

weapon.

20

guilty of those offenses.

21

In that event, you must return a verdict of not

After considering all the evidence, if you decide

22

the prosecution has met this burden of proof, then the

23

prosecution has proved the defendant's conduct was not

24

legally authorized by this defense.

25

verdicts concerning the charge of assault in the

65a

In that event, your

19

1

second-degree, intent to cause bodily injury, causing

2

serious bodily injury and assault in the second-degree,

3

bodily injury with a deadly weapon must depend upon your

4

determination whether the prosecution has met its burden of

5

proof with respect to the remaining elements of those

6

offenses.

7

Instruction 17:

The evidence presented in this

8

case has raised the question of self-defense with respect to

9

assault in the second-degree, reckless, assault in the

10

third-degree, reckless, and assault in the third-degree,

11

negligence and deadly weapon.

12

using physical force upon another person without first

13

retreating in order to defend himself from what he

14

reasonably believes to be the use or imminent use of

15

unlawful physical force by that other person, and he may use

16

a degree of force which he reasonably believes to be

17

necessary for that purpose.

18

justified in using physical force if he is the initial

19

aggressor, except that his use of physical force upon

20

another person under the circumstances is justifiable if he

21

withdraws from the encounter and effectively communicate to

22

the other person his intent to do so, but the other person

23

nevertheless continues or threatens the use of unlawful

24

physical force.

25

A person is justified in

However, a person is not

You have been instructed that the prosecution has

66a

20

1

the burden of proving beyond a reasonable doubt all of the

2

elements of assault in the second-degree, reckless, assault

3

in the third-degree, reckless, and assault in the

4

third-degree, negligence and deadly weapon, including that

5

the defendant acted recklessly or with criminal negligence.

6

You are further instructed with respect to assault in the

7

second-degree, reckless, assault in the third-degree,

8

reckless and assault in the third-degree, negligence and

9

deadly weapon, the prosecution does not have an additional

10

burden to disprove self-defense, but that a person does not

11

act recklessly or with criminal negligence if his conduct is

12

legally justified as set forth above.

13

Instruction 18:

During this trial you were

14

permitted to submit written questions to witnesses.

15

particular question was not asked, do not guess why the

16

question was not asked or what the answer might have been.

17

My decision not to ask a question submitted by a juror is

18

not a reflection on the person asking it, and you should not

19

attach any significance to the failure to ask a question.

20

By making legal rulings on the admissibility of questions, I

21

did not intend to suggest or express any opinion about the

22

question.

23

based on the applicable Rules of Evidence and other rules of

24

law and not on the facts of this particular case.

25

responsibility to assure that all parties receive a fair

If a

My decision whether or not to allow a question is

67a

It is my

21

1

trial according to the law and Rules of Evidence.

2

The fact that certain questions were not asked

3

must not affect your consideration of the evidence in any

4

way.

5

questions, that are submitted by yourself or your fellow

6

jurors.

7

the evidence that has been presented.

Do not give greater weight to questions, or answers to

In making your decision, you must consider all of

8
9

Instruction 19:

Members of the jury, you must

discuss this case only when you are all present and you may

10

only deliberate in the jury room.

11

to discuss this case with other jurors or anyone else at any

12

other time except when all jurors are in the jury room.

13

Instruction 20:

No juror should attempt

Once you begin your

14

deliberations, if you have a question, your foreperson

15

should write it on a piece of paper, sign it and give to the

16

bailiff who will bring it to me.

17

determine the appropriate way to answer the question.

18

However, there may be some questions that, under the law,

19

the Court is not permitted to answer.

20

speculate about what the answer to your question might have

21

been or why the Court is not able to answer a particular

22

question.

23

The Court will then

Please do not

Finally, please be sure to keep the original

24

question and response.

25

of the official record in this case and must be returned to

Do not destroy them as they are part

68a

22

1

me when you return the instructions and verdict forms at the

2

end of the case.

3

Instruction 21:

I'm going to go ahead and read

4

this and then we are going to do closings in a little bit,

5

and at the very end I will read this again.

6

The bailiff will now escort you to the jury room where you

7

will select one of your members to be your foreperson.

8

foreperson will preside over your deliberations and shall

9

sign any verdict form that you may agree on according to the

10

Instruction 21:

Your

rules that I'm about to explain.

11

The verdict for each charge must represent the

12

considered judgment of each juror and it must be unanimous.

13

In other words, all of you must agree to all parts of it.

14

Only one verdict shall be returned signed for each count.

15

The verdict forms and these instructions shall remain in the

16

possession of your foreperson until I ask for them in open

17

court.

18

Upon reaching a verdict you will inform the

19

bailiff who in turn will notify me, and you will remain in

20

the jury room until I call you into the courtroom.

21

You will be provided with three verdict forms.

22

When you have unanimously agreed upon your

23

verdict, you will select the option on each form which

24

reflects your verdict and the foreperson will sign the

25

verdict forms as I have stated.

69a

23

1

I will now read to you the verdict forms.

You

2

must not draw any inferences based on the order in which I

3

read them.

4

follows:

5

second-degree, intent to cause bodily injury, cause serious

6

bodily injury.

7

defendant, Derek Michael Rigsby, not guilty of count No. 1,

8

assault in the second-degree, intent to cause bodily injury,

9

caused serious bodily injury, and there's a signature line

10

The verdict forms you will receive read as

Jury verdict count No. 1, assault in the

Roman numeral I:

We, the jury, find the

for the foreperson.

11

Roman numeral II:

We, the jury, find the

12

defendant, Derek Michael Rigsby, guilty of number No. 1,

13

assault in the second degree, intent to cause bodily injury,

14

caused serious bodily injury, and there's a signature line

15

for the foreperson.

16

connects to both Roman numeral I and Roman numeral II.

17

provides the foreperson should sign only one of the above,

18

Roman numeral I or Roman numeral II.

19

guilty, then Roman numeral I above should be signed.

20

verdict is guilty, then Roman numeral II above should be

21

signed.

22

There's an asterisk at the bottom that
It

If the verdict is not
If the

Jury verdict Count No. 2, assault in the

23

second-degree, reckless.

24

find the defendant, Derek Michael Rigsby, not guilty of

25

count No. 2, assault in the second-degree, reckless, and the

Roman numeral I:

70a

We, the jury,

24

1

lesser included offense of assault in the third-degree,

2

reckless, and there's a signature line for the foreperson.

3

Roman Numeral II:

We, the jury, find the

4

defendant, Derek Michael Rigsby, guilty of, and there's a

5

box and it says, assault in the second-degree, reckless, and

6

there's a box, assault in the third-degree, reckless, and

7

signature line for the foreperson.

8

if you find the defendant not guilty of the charged offense

9

and lesser included offense, the foreperson should sign

Asterisk one provides,

10

section Roman numeral I above.

11

it provides, if you find the defendant guilty of the crime

12

charged or lesser included offense, the foreperson should

13

complete only this guilty verdict by placing, in ink, an X

14

in the appropriate square.

15

in, with the remainder to remain unmarked.

16

should then sign only section II above.

17

There are two asterisks and

Only one square may be filled
The foreperson

Jury verdict form for count No. 3, assault in the

18

second-degree, bodily injury, with a deadly weapon.

19

numeral I:

20

Rigsby, not guilty of count No. 3, assault in the

21

second-degree, bodily injury with a deadly weapon, and a

22

lesser included offense of assault in the third-degree,

23

negligence and deadly weapon.

24

for the foreperson.

25

Roman

We, the jury, find the defendant, Derek Michael

Roman numeral II:

71a

And there's a signature line

We, the jury, find the

25

1

defendant, Derek Michael Rigsby, guilty of and there's a box

2

and next to it, it says assault in the second-degree, bodily

3

injury with a deadly weapon, or, and there's a box and it

4

says assault in the third-degree, negligence and deadly

5

weapon, and a signature line for the foreperson.

6

the single asterisk it says, if you find the defendant not

7

guilty of the charged offense and the lesser included

8

offense, the foreperson should sign section I above.

9

to the double asterisk, it says, if you find the defendant

10

guilty of the crime charged or the lesser included offense,

11

the foreperson should complete only this guilty verdict by

12

placing, in ink, an X in the appropriate square.

13

square may be filled in with the remainder to remain

14

unmarked.

15

above.

16

Next

Only one

The foreperson should then sign only section II

Ladies and gentlemen, that concludes the reading

17

of the jury instructions.

18

statements.

19

Next to

We will now turn to closing

Mr. Peters.

MR. PETERS:

Thank you, Your Honor.

At the

20

beginning of trial, I told you Mr. Rigsby smashed a class

21

into Mr. Mohrman's face ripping it open.

22

evidence now.

23

that's what happened.

24

in this packet.

25

I want to take a few minutes to walk through them with you

You've seen what happened.

You heard all the
You've seen that

Now, there are a lot of instructions

I note some of them are pretty confusing.

72a

